OIG Audit Report GR-30-06-004

Use of Equitable Sharing Assets by the Baltimore Police Department, Baltimore, Maryland

Audit Report GR-30-06-004


April 2006
Office of the Inspector General


Executive Summary





The Comprehensive Crime Control Act of 1984 granted the U.S. Attorney General the authority to share federally forfeited assets with cooperating local law enforcement agencies.  The purpose of the Department of Justices (DOJ) Forfeiture Program is to deter crime by depriving criminals the profits and proceeds of illegal activities, and enhance cooperation among federal, state, and local law enforcement agencies.
The Baltimore Police Department (BPD) participates in the DOJ equitable sharing program and receives disbursements resulting from assets and cash seized from its law enforcement investigations.  According to DOJ guidelines, receiving agencies should use equitable sharing funds for law enforcement purposes.  Consequently, we performed an audit to determine if the BPD properly accounted for and used over $2.3 million in equitable sharing funds it secured during the review period of July 1, 2003 to December 31, 2005.
We found that the BPD generally complied with equitable sharing guidelines.  The BPD used equitable sharing funds to expand its efforts to deter crime and protect its citizens by acquiring information technology equipment, enhancing its surveillance capabilities, and increasing training opportunities for its sworn personnel.  
However, we determined that the BPD did not:  (1) adequately track equitable sharing requests to actual receipts; (2) maintain an inventory or other process to account for and track accountable items purchased with equitable sharing revenues; and (3) ensure that certain expenses relating to the closed-circuit television (CCTV) system were properly authorized and allowable.